Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Grant Administered by Big Brothers Big Sisters of AmericaPhiladelphia, Pennsylvania

Report No. GR-70-04-005


May 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Juvenile Justice and Delinquency Prevention Grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Big Brothers Big Sisters of America (BBBSA), located in Philadelphia, Pennsylvania.  The purpose of the grant is to support efforts to increase the number of mentors for at-risk youth by strengthening the capacity of local affiliates and the National Office.  Between May 1998 and September 2002, the BBBSA was awarded a total of $12,393,400 in grant funds to develop a process with which to identify growth-oriented best practices in the affiliates, disseminate information and train the affiliates to implement the best practices, and expand opportunities at the national level to recruit and retain more volunteers.
The BBBSA has not fully complied with grant requirements.  We found deficiencies in the timeliness and submission of the BBBSA's financial and progress reporting, support for reimbursements claimed for costs incurred under the grant, and inventory records for accountable property.  As a result, we question $91,214 in reimbursements, which is less than one percent of total grant funding.1

Six of the twenty-two Financial Status Reports were not submitted timely.


Two of the eight submitted progress reports were not submitted timely.


Three required progress reports were not submitted.


The BBBSA did not provide adequate support for $91,214 of sampled direct costs charged to the grant.


The BBBSA's inventory records did not contain all required elements.  The BBBSA inventory records did not identify the location of certain accountable property.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings.